NO. _ _ _ _ __

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
August 13, 2021 Term

ANTONYO REECE, ALSO KNOWN AS

§

SEVEN

§
§
Petitioner

§
§

vs.

§
§
§

UNITED STATES OF AMERICA
Respondent

§
§

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis for the following reasons:

Motion for Leave to Proceed In Forma Pauperis

Page 1

The Petitioner has previously been granted leave to proceed in forma pauperis in both the
District Court of the Northern District of Texas and the Fifth Circuit Court of Appeals. Petitioner's
affidavit or declaration is not attached because the court below appointed counsel in the current
proceeding and a copy of the order of appointment is appended.

Respectfully submitted,
WHALEN LAW OFFICE

xas Bar Card No. 00794837
300 John Hickman Pkwy, Suite 501
Frisco, Texas 75035
Tel: (214) 368-2560
Fax: (972) 829-8654
jwhalen@whal nlawoffice.com
ATTORNEY FOR PETITIONER

Motion for Leave to Proceed In Forrna Pauperis

Page 2

